APPENDIX 1

Case 3:08-cr-00012-DCB-MTP Document 26 Filed 06/06/18 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
WENDELL TAYLOR

PETITIONER

VS.

CRIMINAL NO. 3:08-cr-12(DCB)
CIVIL NO. 3:16-cv-108(DCB)

UNITED STATES OF AMERICA

RESPONDENT

MEMORANDUM OPINION AND ORDER
This cause is before the Court on defendant/petitioner Wendell
Taylor’s Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or
Correct Sentence by a Person in Federal Custody (Docket Entry 22 in
cause no. 3:08-cr-12).

After conducting the preliminary review

required by Rule 4 of the Rules Governing Section 2255 Proceedings
for the United States Courts, the Court found that the Government
should be required to “file an answer, motion or other response” as
required by Rule 4.

(Docket Entry 23).

The Government filed a Motion to Dismiss (Docket Entry 24),
moving to dismiss the petitioner’s § 2255 motion on grounds that
Taylor expressly waived his right to bring such a motion.
On

February

5,

2008,

a

federal

grand

jury

returned

an

indictment charging Taylor with being a felon in possession of a
firearm, in violation of 18 U.S.C. § 922(g)(1) and § 924(e).
(Docket Entry 1). Taylor pled guilty, and on February 3, 2009, the
Court sentenced him to 151 months in prison followed by a five-year
term of supervised release.

(Minute Entry of 02/03/2009).

On

February 11, 2016, Taylor filed the instant § 2255 motion seeking

Case 3:08-cr-00012-DCB-MTP Document 26 Filed 06/06/18 Page 2 of 5

collateral review of his 2009 sentence.
Specifically,

Taylor

seeks

to

reopen

(Docket Entry 22).
his

case

for

further

sentencing proceedings in light of Johnson v. United States, 135
S.Ct. 2551 (2015).

However, Taylor specifically waived his right

to attack his sentence when he signed a plea agreement.

Pursuant

to Federal Rule of Criminal Procedure 11(c), Taylor entered a
guilty plea predicated on his signed plea agreement. (Minute Entry
of 10/07/08).
by the Court.

Taylor’s plea and the plea agreement were accepted
Id.

In his written plea agreement, entered into

with the advice of counsel1, Taylor specifically waived his right
to attack his sentence.

Paragraphs 13 and 13(b) of the plea

agreement evidence such:
Defendant, knowing and understanding all of the matters
aforesaid, including the maximum possible penalty that
could be imposed, and being advised of his rights to
remain silent, to trial by jury, to subpoena witnesses on
his own behalf, to confront the witnesses against him,
and to appeal the conviction and sentence, in exchange
for the recommendations and concessions made by the U.S.
Attorney’s Office in this plea agreement hereby expressly
waives the above rights and the following rights:
The right to contest the conviction and sentence or the
manner in which the sentence was imposed in any postconviction proceeding, including but not limited to a
motion brought under Title 28, United States Code,
Section 2255 ....
(Minute Entry of 10/07/08, Plea Agreement ¶¶ 13, 13(b)(emphasis
added). When Taylor signed his plea agreement, he expressly waived

1

At the time Taylor executed the plea agreement, he was
represented by experienced counsel, attorney Kathy Nester, who also
signed the plea agreement.

2

Case 3:08-cr-00012-DCB-MTP Document 26 Filed 06/06/18 Page 3 of 5

his right to appeal his conviction and his sentence in any postconviction proceedings.

Furthermore, the Court accepted Taylor’s

guilty plea, entered a judgment of conviction, and sentenced
Taylor.

(Minute Entry of 02/03/2009).

Despite having waived his right to attack his sentence through
a § 2255 motion, Taylor filed the instant Motion pursuant to 28
U.S.C. § 2255 (Docket Entry 22).
“As a general rule, a voluntary, unconditional guilty plea
waives all nonjurisdictional defects in the proceedings against the
defendant.”

United States v. Hoctel, 154 F.3d 506, 507 (5th Cir.

1998).

addition

In

to

the

general

waiver

resulting

from

a

defendant’s unconditional guilty plea, a defendant may agree to
surrender his right to contest his sentencing as part of a plea
agreement with the Government.

Id. at 508.

Courts have long enforced waivers of collateral-attack rights
in plea agreements.

See, e.g., United States v. Wilkes, 20 F.3d

651, 653 (5th Cir. 1994)(“As a general matter, therefore - and at
least under the facts and circumstances of this case - an informed
and voluntary waiver of post-conviction relief is effective to bar
such relief.”); see also Garcia-Santos v. United States, 273 F.3d
506, 509 (2nd Cir. 2001).

This is true even where the grounds for

the attack arise after the plea agreement is executed. See GarciaSantos, 273 F.3d at 509 (providing prudential and policy reasons).
To date, the Fifth Circuit has recognized two exceptions to

3

Case 3:08-cr-00012-DCB-MTP Document 26 Filed 06/06/18 Page 4 of 5

this general rule: (1) a claim of ineffective assistance if “the
claimed ineffective assistance directly affected the validity of
that waiver or the plea itself” and (2) a sentencing claim where
the sentence “exceeds the statutory maximum” penalty.

See United

States v. Hollins, 97 Fed.App’x 477, 479 (5th Cir. 2004).
exception applies to Taylor.

Neither

Taylor’s § 2255 motion sets forth no

allegations of ineffective counsel or that any ineffectiveness
invalidated his guilty plea. Furthermore, Taylor cannot claim that
his 151 month sentence exceeds the statutory maximum penalty.
According

to

the

U.S.

Probation

Office’s

Presentence

Investigation Report (“PSIR”), the minimum term of imprisonment is
15 years and the maximum term is life, pursuant to 18 U.S.C. §
924(e).

(Docket Entry 18, ¶ 92).

Additionally, pursuant to

U.S.S.G. Chapter 5, Part A, based on a total offense level of 30
and a criminal history category of V, the guideline imprisonment
range is 151 to 188 months; but due to the statutory minimum, the
guideline range becomes 180 to 188 months.

(Id., ¶ 93).

For

reasons stated at Taylor’s sentencing on February 4, 2009, the
Court sentenced Taylor to serve 151 months in prison, clearly not
exceeding the statutory maximum penalty.
As for Johnson v. United States, 135 S.Ct. 2551 (2015), the
Supreme Court has held that Johnson-style analysis does not apply
to cases involving the residual clause definition of a “crime of
violence” in U.S.S.G. § 41B.2(a)(2), nor would it apply to U.S.S.G.

4

Case 3:08-cr-00012-DCB-MTP Document 26 Filed 06/06/18 Page 5 of 5

§ 2L1.2.

See Beckles v. United States, 137 S.Ct. 886 (2017).

Therefore, Taylor’s arguments are predicated exclusively on
alleged errors in guidelines calculations, errors which he agreed
not to raise in an appeal or in a collateral attack of his
sentence.

Because

Taylor

voluntarily

waived

his

right

to

collaterally attack his sentence in a § 2255 motion, his present
motion must be dismissed.
In conclusion, the Court agrees with the Government that
Taylor’s § 2255 motion must be dismissed as waived.
ACCORDINGLY,
IT IS HEREBY ORDERED that the Government’s Motion to Dismiss
(Docket Entry 24) is GRANTED;
FURTHER ORDERED that defendant/petitioner Wendell Taylor’s
Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct
Sentence by a Person in Federal Custody (Docket Entry 22 in cause
no. 3:08-cr-12) is DISMISSED AS WAIVED.
A Final Judgment dismissing this case with prejudice shall be
entered this day.
SO ORDERED, this the 6th day of June, 2018.

/s/ David Bramlette
UNITED STATES DISTRICT JUDGE

5

APPENDIX 2

Case: 18-60425

Document: 00515356569

Page: 1

Date Filed: 03/24/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED

No. 18-60425
Summary Calendar

March 24, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
WENDELL TAYLOR,
Defendant-Appellant
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:16-CV-108
Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM: *
In 2008, Wendell Taylor pleaded guilty to being a felon in possession of
a firearm, in violation of 18 U.S.C. § 922(g)(1).

Taylor’s plea agreement

contained a waiver of his right to appeal or collaterally challenge his conviction
or sentence on any ground. In his original sentencing, he was subject to an
enhanced statutory minimum sentence of 15 years (180 months) under the
Armed Career Criminal Act (ACCA) because he had, relevantly, “three
previous convictions . . . for a violent felony[.]” 18 U.S.C. § 924(e). Taylor avers
Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 18-60425

Document: 00515356569

Page: 2

Date Filed: 03/24/2020

No. 18-60425
that his ACCA predicates were Mississippi convictions for house burglary,
burglary of an occupied dwelling, and manslaughter. 1 Based on the same
predicates, Taylor also received a career-offender guidelines enhancement. As
a result, his minimum sentence would have been 180 months; but, prior to
sentencing, the Government moved for a downward departure and to “impose
a sentence below the statutory minimum” based on Taylor’s substantial
assistance. See U.S.S.G. § 5K1.1. Apparently granting the motion, the district
court sentenced Taylor to 151 months of imprisonment, followed by five years
of supervised release. Taylor did not appeal his conviction or sentence.
In 2015, the Supreme Court issued Johnson v. United States, which
invalidated, as unconstitutionally vague, the ACCA’s “residual clause”
definition of “violent felony.”

135 S. Ct. 2551, 2555-57 (2015) (“Samuel

Johnson”). Subsequently, Taylor filed a 28 U.S.C. § 2255 motion to vacate his
ACCA and career-offender guideline sentences in light of Samuel Johnson. In
pertinent part, he argued that his manslaughter conviction no longer qualifies
as a “violent felony” under the ACCA following Samuel Johnson because none
of the relevant Mississippi manslaughter statutes has “as an element the use,
attempted use, or threatened use of physical force against the person of
another.” § 924(e)(2)(B)(i); cf. United States v. Reyes-Contreras, 910 F.3d 169,
179-80 (5th Cir. 2018) (en banc) (explaining the meaning of use of force in the
context of a sentencing guidelines provision for a crime of violence); United
States v. Griffin, 946 F.3d 759 (5th Cir. 2020) (concluding that Mississippi
aggravated assault was a violent felony under the ACCA).

The indictment also lists a fourth § 922(g)(1) predicate, a 1995 Mississippi conviction
for business burglary. In his § 2255 motion, Taylor avers that “the prosecution abandoned
its position that business burglary i[s] a ‘violent felony’ under the ACCA,” but cites nowhere
in the record where that occurred. Given our ruling, this issue is irrelevant.
1

2

Case: 18-60425

Document: 00515356569

Page: 3

Date Filed: 03/24/2020

No. 18-60425
Without reaching the merits of the Samuel Johnson argument, the
district court granted the Government’s motion to dismiss, agreeing that
Taylor’s collateral attack of his ACCA sentence was barred by the appeal
waiver in his plea agreement.

The court also denied a certificate of

appealability (COA). On appeal, we granted a COA “on the issue of whether
[Taylor’s Samuel] Johnson claim is barred by the collateral-review waiver.”
Although not mentioned by the parties in their 2019 briefing, Taylor was
released from prison in December of 2018. We must consider our jurisdiction
sua sponte. However, we conclude that this appeal is not moot because Taylor’s
term of supervised release is still in effect. See United States v. Johnson, 529
U.S. 53, 60 (2000); see also United States v. Solano-Hernandez, 761 F. App’x
276, 280 (5th Cir. 2019) (concluding that challenge to a sentence was not moot
because the defendant remained subject to a period of supervised release, even
though he had been released from prison and had not specifically challenged
his supervised release sentence on appeal). We therefore address the parties’
arguments on the waiver issue. 2
Taylor argues that his predicate crimes are no longer violent felonies as
a result of Samuel Johnson. He claims that his appeal waiver cannot apply to
this argument about Samuel Johnson since such an argument did not exist at
the time of his waiver. He further argues that we have conflicting precedents
on the applicability of waiver in this situation but relies upon Smith v.
Blackburn, 632 F.2d 1194 (5th Cir. 1980) and United States v. Wright, 681 F.
App’x 418 (5th Cir. 2017) to support his argument. In turn the Government
contends that, under the rule of orderliness, the relevant case is United States
v. Creadell Burns, 433 F.3d 442, 443-44 (5th Cir. 2005), which held that a party
Taylor sought an initial hearing en banc on the question of whether a party’s waiver
of collateral review encompasses legal claims arising under subsequent law announced
following the waiver. The full court denied that request.
2

3

Case: 18-60425

Document: 00515356569

Page: 4

Date Filed: 03/24/2020

No. 18-60425
sentenced under the mandatory Guidelines scheme who waived his right to
collaterally attack his sentence could not benefit from the Supreme Court’s
January 2005 decision in United States v. Booker, 542 U.S. 296 (2005), that
rendered the Guidelines advisory only. Creadell Burns, 433 F.3d at 449, 451.
Thus, Burns’s appeal waiver was not invalidated “merely because the waiver
was made before Booker.” Id. at 450-51. In so holding, the court noted that
Burns had “know[n] the appellate rights he had” at the time he voluntarily
waived them. Id. at 450.
The Government avers that Creadell Burns resolves the waiver issue
against Taylor because Taylor knowingly and voluntarily waived his right to
collaterally attack his sentence in pleading guilty and his waiver survived the
changes wrought by Samuel Johnson. Taylor counters that Creadell Burns is
distinguishable because a decision prior to that defendant’s waiver showed the
pathway to Booker. 3 433 F.3d at 450 n.9. On the other hand, Taylor asserts,
he “had no notice whatsoever that the retroactively applicable holdings in
[Samuel] Johnson would affect his sentence” at the time he pleaded guilty
because Samuel Johnson would not be decided for another six years. The
Government replies by noting that the Creadell Burns panel enforced the
appeal waiver despite observing that, while he was aware of Blakely at the
time of his plea, “‘Burns did not know whether or how the Supreme Court
would apply its Blakely holding to the Guidelines.’” Id.
Taylor additionally argues that this court should disregard Creadell
Burns because it conflicts with Smith and, under this court’s rule of
orderliness, Smith prevails. United States v. Walker, 302 F.3d 322, 325 (5th
Cir. 2002) (holding that under the rule of orderliness, “the earlier precedent
controls”). The Government contends that because Smith did not involve a
3

The decision in question was Blakely v. Washington, 542 U.S. 296, 303-04 (2004).

4

Case: 18-60425

Document: 00515356569

Page: 5

Date Filed: 03/24/2020

No. 18-60425
collateral-review waiver, it does not conflict with Creadell Burns and,
therefore, does not control under the rule of orderliness. 4
We conclude that Creadell Burns governs under the rule of orderliness
because Smith did not include a plea agreement waiver. See Smith, 632 F.2d
at 1195. For that reason, Smith is not dispositive under the rule of orderliness.
See Tech. Automation Servs. Corp. v. Liberty Surplus Ins. Corp., 673 F.3d 399,
405 (5th Cir. 2012) (applying the rule of orderliness where “a previous panel .
. . resolved this question,” meaning the precise question at issue in the later
appeal) (emphasis added). We note that in Wright, our court held that the
Government had “waived the waiver” argument.

Further, that case is

unpublished and, therefore, not controlling. Indeed, a different unpublished
opinion from our court is more persuasive: United States v. Timothy Burns, 770
F. App’x 187 (5th Cir.), cert. denied, 140 S. Ct. (2019). Burns pleaded guilty to
armed bank robbery and brandishing a firearm during a crime of violence,
waiving his rights to appeal and collateral review, and was sentenced as a
career offender under the Guidelines. 770 F. App’x at 189. Following the
issuance of Samuel Johnson, Burns filed a § 2255 motion “asserting that his
prior convictions no longer qualified him for the career offender enhancement
and that his brandishing conviction should be vacated.” Id. Relevantly, Burns
argued that his collateral-review waiver was unenforceable because he could
not waive a right “that did not exist at the time he agreed to the waiver,” citing
as support the Sixth Circuit’s opinion in United States v. McBride, 826 F.3d
293, 295 (6th Cir. 2016) (holding that “McBride could not have intentionally

The Government further contends that Smith is inapposite because the defendant
therein “was forced to choose between two unconstitutional choices”—trial by either a fiveperson jury or a six-person jury requiring the consent of only five to convict—whereas “[t]here
is nothing unconstitutional about waiving post-conviction relief” as Taylor did. We do not
reach this argument.
4

5

Case: 18-60425

Document: 00515356569

Page: 6

Date Filed: 03/24/2020

No. 18-60425
relinquished a claim based on [Samuel] Johnson, which was decided after his
sentencing”). Timothy Burns, 770 F. App’x at 190.
We distinguished McBride because the plea agreement in that case did
not include an appeal waiver. 770 F. App’x at 190; see McBride, 826 F.3d at
294-95. We noted that we “continue[s] to enforce waivers despite changes in
law,” and held that Burns’s argument was “foreclosed” by Creadell Burns.
Timothy Burns, 770 F. App’x at 190-91. Accordingly, we concluded that Burns
had waived his collateral challenge to the career offender enhancement and
affirmed the denial of § 2255 relief. Id. at 191. Although as an unpublished
opinion, Timothy Burns is not controlling precedent, it is “highly persuasive”
because it rejected an argument materially identical to Taylor’s. United States
v. Pino Gonzalez, 636 F.3d 157, 160 (5th Cir. 2011); see Ballard v. Burton, 444
F.3d 391, 401 & n.7 (5th Cir. 2006) (citing 5TH CIR. R. 47.5.4).
In sum, we conclude that the district court did not err in dismissing
Taylor’s § 2255 claim due to his plea waiver. AFFIRMED.

6

Case: 18-60425

Document: 00515356596

Page: 1

Date Filed: 03/24/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 18-60425
Summary Calendar
_______________________
D.C. Docket No. 3:16-CV-108

United States Court of Appeals
Fifth Circuit

FILED
March 24, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
WENDELL TAYLOR,
Defendant - Appellant
Appeal from the United States District Court for the
Southern District of Mississippi
Before WIENER, HAYNES, and COSTA, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
affirmed.

APPENDIX 3

United States v. Taylor, 806 Fed.Appx. 276 (2020)

Affirmed.
806 Fed.Appx. 276
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.

Procedural Posture(s): Appellate Review; Post-Conviction
Review.
West Headnotes (2)
[1]

Defendant's release from prison did not render
moot claim that prior Mississippi conviction
for manslaughter no longer qualified as violent
felony, within meaning of Armed Career
Criminal Act (ACCA), following invalidation
of ACCA's residual clause defining “violent

No.
18
60425
|
Summary Calendar
|
FILED March 24, 2020

following
Johnson v. United States. United States District
Court for the Southern District of Mississippi, David C.
Bramlette, Senior District Judge, granted Government's
motion to dismiss, 2018 WL 2728491, and defendant
appealed.

Holdings: The Court of Appeals held that:
[1] defendant's release from prison did not render moot claim
that prior Mississippi conviction for manslaughter no longer
qualified as “violent felony” under ACCA, and
[2] defendant's waiver of right to appeal or collaterally
challenge enhanced sentence was not rendered invalid by
Johnson v. United States.

Mootness

110 Criminal Law
110XXIV Review
110XXIV(L) Scope of Review in General
110XXIV(L)3 Questions Considered in General
110k1134.26 Mootness

UNITED STATES of America, Plaintiff-Appellee
v.
Wendell TAYLOR, Defendant-Appellant

Synopsis
Background: Defendant convicted on guilty plea of
possession of firearm by convicted felon filed motion
to vacate, set aside or correct sentence, based on claim
that prior Mississippi conviction for manslaughter was no
longer “violent felony” that could serve as predicate to
enhance sentence under Armed Career Criminal Act (ACCA),

Criminal Law

felony” under

Johnson v. United States,

where he remained on supervised release.
U.S.C.A. § 924(e).

18

1 Cases that cite this headnote
[2]

Criminal Law

Issues considered

Criminal Law
contendere plea

Effect of guilty or nolo

110 Criminal Law
110XXIV Review
110XXIV(D) Right of Review
110k1025 Right of Defendant to Review
110k1026.10 Waiver or Loss of Right
110k1026.10(2) Plea of Guilty or Nolo
Contendere
110k1026.10(4) Issues considered
110 Criminal Law
110XXX Post-Conviction Relief
110XXX(A) In General
110k1434 Effect of guilty or nolo contendere plea

Defendant's waiver of right to appeal or
collaterally challenge his enhanced sentence
for possession of firearm by convicted felon
on any ground was not rendered invalid,
under rule of orderliness, following subsequent
invalidation of residual clause's definition of
“violent felony” under Armed Career Criminal

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Taylor, 806 Fed.Appx. 276 (2020)

Act (ACCA) in
Johnson v. United States, and
thus, plea waiver barred postconviction review
of claim that prior Mississippi conviction for
manslaughter no longer qualified as “violent
felony,” within meaning of ACCA.
U.S.C.A. § 924(e).

18

but, prior to sentencing, the Government moved for a
downward departure and to “impose a sentence below the
statutory minimum” based on Taylor’s substantial assistance.
See
U.S.S.G. § 5K1.1. Apparently granting the motion,
the district court sentenced Taylor to 151 months of
imprisonment, followed by five years of supervised release.
Taylor did not appeal his conviction or sentence.
1

*277 Appeal from the United States District Court for the
Southern District of Mississippi, USDC No. 3:16-CV-108
Attorneys and Law Firms
Gregory Layne Kennedy, Esq., Assistant U.S. Attorney, Erin
O'Leary Chalk, Assistant U.S. Attorney, U.S. Attorney's
Office, Southern District of Mississippi, Jackson, MS, for
Plaintiff - Appellee
Michael L. Scott, Esq., Thomas Creagher Turner, Jr.,
Esq., Federal Public Defender's Office, Southern District of
Mississippi, Jackson, MS, for Defendant - Appellant
Before WIENER, HAYNES, and COSTA, Circuit Judges.
Opinion
PER CURIAM: *
*

Pursuant to 5th Cir. R. 47.5, the court has
determined that this opinion should not be
published and is not precedent except under the
limited circumstances set forth in 5th Cir. R. 47.5.4.

In 2008, Wendell Taylor pleaded guilty to being a felon in
possession of a firearm, in violation of
18 U.S.C. § 922(g)
(1). Taylor’s plea agreement contained a waiver of his right
to appeal or collaterally challenge his conviction or sentence
on any ground. In his original sentencing, he was subject
to an enhanced statutory minimum sentence of 15 years
(180 months) under the Armed Career Criminal Act (ACCA)
because he had, relevantly, “three previous convictions ...
for a violent felony[.]”
18 U.S.C. § 924(e). Taylor avers
that his ACCA predicates were Mississippi convictions
for house burglary, burglary of an occupied dwelling, and
manslaughter. 1 Based on the same predicates, Taylor also
received a career-offender guidelines enhancement. As a
result, his minimum sentence would have been 180 months;

The indictment also lists a fourth
§ 922(g)
(1) predicate, a 1995 Mississippi conviction for
business burglary. In his § 2255 motion, Taylor
avers that “the prosecution abandoned its position
that business burglary i[s] a ‘violent felony’ under
the ACCA,” but cites nowhere in the record
where that occurred. Given our ruling, this issue is
irrelevant.

In 2015, the Supreme Court issued
Johnson v. United
States, which invalidated, *278 as unconstitutionally vague,
the ACCA’s “residual clause” definition of “violent felony.”
––– U.S. ––––, 135 S. Ct. 2551, 2555-57, 192 L.Ed.2d 569
(2015) (“

Samuel Johnson”). Subsequently, Taylor filed a

28 U.S.C. § 2255 motion to vacate his ACCA and careeroffender guideline sentences in light of
Samuel Johnson.
In pertinent part, he argued that his manslaughter conviction
no longer qualifies as a “violent felony” under the ACCA
following
Samuel Johnson because none of the relevant
Mississippi manslaughter statutes has “as an element the use,
attempted use, or threatened use of physical force against the
person of another.”
§ 924(e)(2)(B)(i); cf. United States v.
Reyes-Contreras, 910 F.3d 169, 179-80 (5th Cir. 2018) (en
banc) (explaining the meaning of use of force in the context
of a sentencing guidelines provision for a crime of violence);
United States v. Griffin, 946 F.3d 759 (5th Cir. 2020)
(concluding that Mississippi aggravated assault was a violent
felony under the ACCA).
Without reaching the merits of the
Samuel Johnson
argument, the district court granted the Government’s motion
to dismiss, agreeing that Taylor’s collateral attack of his
ACCA sentence was barred by the appeal waiver in his plea
agreement. The court also denied a certificate of appealability
(COA). On appeal, we granted a COA “on the issue of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Taylor, 806 Fed.Appx. 276 (2020)

whether [Taylor’s
Samuel]
the collateral-review waiver.”

Johnson claim is barred by

[1] Although not mentioned by the parties in their 2019
briefing, Taylor was released from prison in December of
2018. We must consider our jurisdiction sua sponte. However,
we conclude that this appeal is not moot because Taylor’s term
of supervised release is still in effect. See
United States
v. Johnson, 529 U.S. 53, 60, 120 S.Ct. 1114, 146 L.Ed.2d
39 (2000); see also United States v. Solano-Hernandez, 761
F. App'x 276, 280 (5th Cir. 2019) (concluding that challenge
to a sentence was not moot because the defendant remained
subject to a period of supervised release, even though he had
been released from prison and had not specifically challenged
his supervised release sentence on appeal). We therefore

The Government avers that
Creadell Burns resolves
the waiver issue against Taylor because Taylor knowingly
and voluntarily waived his right to collaterally attack his
sentence in pleading guilty and his waiver survived the
changes wrought by

Samuel Johnson. Taylor counters

that
Creadell Burns is distinguishable because a decision
prior to that defendant’s waiver showed the pathway to
Booker. 3
433 F.3d at 450 n.9. On the other hand, Taylor
asserts, he “had no notice whatsoever that the retroactively
applicable holdings in [

Samuel]

Johnson would affect

his sentence” at the time he pleaded guilty because Samuel
Johnson would not be decided for another six years. The

address the parties’ arguments on the waiver issue. 2

Government replies by noting that the
Creadell Burns
panel enforced the appeal waiver despite observing that, while

2

he was aware of
Blakely at the time of his plea, “ ‘Burns
did not know whether or how the Supreme Court would apply

Taylor sought an initial hearing en banc on the
question of whether a party’s waiver of collateral
review encompasses legal claims arising under
subsequent law announced following the waiver.
The full court denied that request.

its
3

Taylor argues that his predicate crimes are no longer violent
felonies as a result of

Samuel Johnson. He claims that his

appeal waiver cannot apply to this argument about Samuel
Johnson since such an argument did not exist at the time of his
waiver. He further argues that we have conflicting precedents
on the applicability of waiver in this situation but relies upon
Smith v. Blackburn, 632 F.2d 1194 (5th Cir. 1980) and
United States v. Wright, 681 F. App'x 418 (5th Cir. 2017) to
support his argument. In turn the Government contends that,
under the rule of orderliness, the relevant case is
United
States v. Creadell Burns, 433 F.3d 442, 443-44 (5th Cir.
2005), which held that a party sentenced under the mandatory
Guidelines scheme who waived his right to collaterally attack
his sentence could not benefit from the Supreme Court’s
January 2005 decision in
Blakely v. Washington, 542 U.S.
296, 124 S.Ct. 2531, 159 L.Ed.2d 403 (2005), that rendered
the Guidelines advisory only.
Creadell Burns, 433 F.3d at
449, 451. Thus, Burns’s appeal waiver was not invalidated
“merely because the waiver was made before Booker.” Id.
at 450-51. In so holding, the court noted that Burns had
“know[n] the appellate rights he had” at *279 the time he
voluntarily waived them.

Blakely holding to the Guidelines.’ ”

Id.

The decision in question was
Blakely v.
Washington, 542 U.S. 296, 303-04, 124 S.Ct. 2531,
159 L.Ed.2d 403 (2004).

Taylor additionally argues that this court should disregard
Creadell Burns because it conflicts with

Smith and,

under this court’s rule of orderliness,
Smith prevails.
United States v. Walker, 302 F.3d 322, 325 (5th Cir. 2002)
(holding that under the rule of orderliness, “the earlier
precedent controls”). The Government contends that because
Smith did not involve a collateral-review waiver, it does
not conflict with

Creadell Burns and, therefore, does not

control under the rule of orderliness. 4
4

The Government further contends that
Smith
is inapposite because the defendant therein “was
forced to choose between two unconstitutional
choices”—trial by either a five-person jury or
a six-person jury requiring the consent of only
five to convict—whereas “[t]here is nothing
unconstitutional about waiving post-conviction
relief” as Taylor did. We do not reach this argument.

Id. at 450.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Taylor, 806 Fed.Appx. 276 (2020)

[2] We conclude that

Creadell Burns governs under the

rule of orderliness because
agreement waiver. See
that reason,

Smith did not include a plea
Smith, 632 F.2d at 1195. For

“McBride could not have intentionally relinquished a claim
based on [

Samuel]

Johnson, which was decided after

his sentencing”). *280
190.

Timothy Burns, 770 F. App'x at

Smith is not dispositive under the rule of

orderliness. See
Tech. Automation Servs. Corp. v. Liberty
Surplus Ins. Corp., 673 F.3d 399, 405 (5th Cir. 2012)
(applying the rule of orderliness where “a previous panel ...
resolved this question,” meaning the precise question at
issue in the later appeal) (emphasis added). We note that in
Wright, our court held that the Government had “waived
the waiver” argument. Further, that case is unpublished and,
therefore, not controlling. Indeed, a different unpublished
opinion from our court is more persuasive:
United States
v. Timothy Burns, 770 F. App'x 187 (5th Cir.), cert. denied,
––– U.S. ––––, 140 S. Ct. 279, 205 L.Ed.2d 185 (2019).
Burns pleaded guilty to armed bank robbery and brandishing
a firearm during a crime of violence, waiving his rights
to appeal and collateral review, and was sentenced as a
career offender under the Guidelines.
Following the issuance of

770 F. App'x at 189.

Samuel Johnson, Burns filed

a
§ 2255 motion “asserting that his prior convictions no
longer qualified him for the career offender enhancement and
that his brandishing conviction should be vacated.”
Id.
Relevantly, Burns argued that his collateral-review waiver
was unenforceable because he could not waive a right “that
did not exist at the time he agreed to the waiver,” citing
as support the Sixth Circuit’s opinion in
United States v.
McBride, 826 F.3d 293, 295 (6th Cir. 2016) (holding that
End of Document

We distinguished

McBride because the plea agreement

in that case did not include an appeal waiver.

770 F.

App'x at 190; see
McBride, 826 F.3d at 294-95. We
noted that we “continue[s] to enforce waivers despite changes
in law,” and held that Burns’s argument was “foreclosed”
by
Creadell Burns.
Timothy Burns, 770 F. App'x at
190-91. Accordingly, we concluded that Burns had waived
his collateral challenge to the career offender enhancement
and affirmed the denial of

§ 2255 relief.

Id. at 191.

Although as an unpublished opinion,
Timothy Burns is
not controlling precedent, it is “highly persuasive” because it
rejected an argument materially identical to Taylor’s. United
States v. Pino Gonzalez, 636 F.3d 157, 160 (5th Cir. 2011);
see
Ballard v. Burton, 444 F.3d 391, 401 & n.7 (5th Cir.
2006) (citing 5TH CIR. R. 47.5.4).
In sum, we conclude that the district court did not err in
dismissing Taylor’s
AFFIRMED.

§ 2255 claim due to his plea waiver.

All Citations
806 Fed.Appx. 276

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

